No. _________
IN THE SUPREME COURT OF THE UNITED STATES

JESUS VILLARREAL-RAMIREZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-11286
Summary Calendar

FILED
July 6, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JESUS VILLARREAL-RAMIREZ,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-170-1

Before HIGGINBOTHAM, HO, and ENGELHARDT, Circuit Judges.
PER CURIAM: *
Jesus Villarreal-Ramirez appeals his within-guidelines sentence of 57
months in prison and two years of supervised release, imposed following his
guilty plea conviction for illegal reentry after removal. He argues that the
enhancement of his sentence based on a prior conviction pursuant to 8 U.S.C.
§ 1326(b)(2), which increased the statutory maximum term of imprisonment to
20 years and the statutory maximum term of supervised release to three years,

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-11286
is unconstitutional because his prior conviction is treated as a sentencing
factor rather than an element of the offense that must be alleged in the
indictment and found by a jury beyond a reasonable doubt. He concedes that
the issue is foreclosed by Almendarez-Torres v. United States, 523 U.S. 224
(1998), but he seeks to preserve the issue for possible Supreme Court review
because, he argues, subsequent decisions indicate that the Supreme Court may
reconsider its holding in Almendarez-Torres.

The Government moves for

summary affirmance, urging that Villarreal-Ramirez’s argument is foreclosed.
The parties are correct that Villarreal-Ramirez’s argument is foreclosed
by Almendarez-Torres. See United States v. Wallace, 759 F.3d 486, 497 (5th
Cir. 2014); United States v. Rojas-Luna, 522 F.3d 502, 505–06 (5th Cir. 2008).
Accordingly, the Government’s motion for summary affirmance is GRANTED,
see Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969), the
Government’s alternative motion for an extension of time to file a brief is
DENIED, and the judgment of the district court is AFFIRMED.

2

APPENDIX B

Case 4:19-cr-00170-O Document 31 Filed 11/15/19

Page 1 of 4 PageID 62

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:19-CR-00170-O(01)
U.S. Marshal’s No.: 79383-179
Michael Levi Thomas, Assistant U.S. Attorney
John Stickney, Attorney for the Defendant

JESUS VILLARREAL-RAMIREZ

On July 10, 2019 the defendant, JESUS VILLARREAL-RAMIREZ, entered a plea of guilty as to Count
One of the Indictment filed on May 22, 2019. Accordingly, the defendant is adjudged guilty of such Count, which
involves the following offense:
Title & Section

Nature of Offense

Offense Ended

Count

8 U.S.C. § 1326(a) and (b)(2)

Illegal Reentry After Deportation

2/17/2019

One

The defendant is sentenced as provided in pages 2 through 3 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count One of the Indictment
filed on May 22, 2019.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.

Sentence imposed November 14, 2019.

____________________________________________
REED O’CONNOR
U.S. DISTRICT JUDGE

Signed November 15, 2019.

Case 4:19-cr-00170-O Document 31 Filed 11/15/19

Page 2 of 4 PageID 63

Judgment in a Criminal Case
Defendant: JESUS VILLARREAL-RAMIREZ
Case Number: 4:19-CR-00170-O(1)

Page 2 of 4

IMPRISONMENT
The defendant, JESUS VILLARREAL-RAMIREZ, is hereby committed to the custody of the Federal
Bureau of Prisons (BOP) to be imprisoned for a term of FIFTY-SEVEN (57) months as to Count One of the
Indictment filed on May 22, 2019. This sentence shall run concurrently with the sentence imposed in Case No.
1583747, Possession of a Controlled Substance, in the 371st Judicial District Court, Tarrant County.
The Court further recommends that the defendant be housed at an FCI facility close to Fort Worth,
Texas, if possible.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of TWO
(2) years as to Count One of the Indictment filed on May 22, 2019.
As a condition of supervised release, upon the completion of the sentence of imprisonment, the
defendant shall be surrendered to a duly-authorized immigration official for deportation in accordance with the
established procedures provided by the Immigration and Nationality Act, 8 USC § 1101 et seq. As a further
condition of supervised release, if ordered deported or removed, the defendant shall remain outside the United
States.
In the event the defendant is not deported immediately upon release from imprisonment, or should the
defendant ever be within the United States during any portion of the term of supervised release, the defendant
shall also comply with the standard conditions contained in the Judgment and shall comply with the mandatory
and special conditions stated herein:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)

( 8)
( 9)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer as directed by the Court or probation officer and submit a truthful
and complete written report within the first five (5) days of each month;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;

Case 4:19-cr-00170-O Document 31 Filed 11/15/19

Page 3 of 4 PageID 64

Judgment in a Criminal Case
Defendant: JESUS VILLARREAL-RAMIREZ
Case Number: 4:19-CR-00170-O(1)

(10)
(11)
(12)
(13)

Page 3 of 4

permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and,
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement, as directed by the
probation officer.
In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;
report in person to the U.S. Probation Office in the district to which the defendant is released from custody
of the Federal Bureau of Prisons, or in which the defendant makes entry into the United States, within 72
hours of release or entry; and,
refrain from any unlawful use of a controlled substance, submitting to one drug test within 15 days of
placement on probation or release from imprisonment and at least two periodic drug tests thereafter, as
directed by the probation officer pursuant to the mandatory drug testing provision of the 1994 crime bill.
FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

Case 4:19-cr-00170-O Document 31 Filed 11/15/19

Page 4 of 4 PageID 65

Judgment in a Criminal Case
Defendant: JESUS VILLARREAL-RAMIREZ
Case Number: 4:19-CR-00170-O(1)

Page 4 of 4

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.

United States Marshal
BY
Deputy Marshal

